No. 19-7

 

IN THE

Supreme Court of the United States

SEILA LAW LLC,

Petitioner,
Vv.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Current
and Former Members of Congress as Amici Curiae in Support of Affirmance contains

7,985 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2020.

Brian R. Frazelle
Counsel for Amici Curiae
